Squire Patton Boggs (US) LLP
2550 M Street, NW
Washington, D.C. 20037
+1 202 457 6000
+1 202 457 6315
squirepattonboggs.com
O
F

Gassan A. Baloul
T +1 202 457 6155
gassan.baloul@squirepb.com

December 20, 2019
Scott S. Harris
Clerk
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, DC 20543-0001
RE:

Consent Request for Extension of Time to Respond to Petition for
Certiorari in Klieman v. PA, No. 19-741 (docketed December 11, 2019).

Dear Mr. Harris,
I am counsel of record for Respondents Palestinian Authority and Palestine
Liberation Organization.
Pursuant to the Court’s Rule 30.4, Respondents
respectfully request an extension of time, to and including March 13, 2020, of the
deadline to file their brief in opposition to the Petition for Certiorari in this action.
Respondents’ brief in opposition currently is due January 10, 2020. This is
Respondents’ first request for an extension of time.
Petitioners’ counsel, Steven Perles of Perles Law Firm, PC, has authorized us
to state that Petitioners consent to this requested extension of Respondents’ time to
file their brief in opposition.
As grounds for this requested extension, Respondents state as follows:
1.

Respondents collectively comprise the government of Palestine
pursuant to the Oslo Accord of 1993. See Declaration of Principles on
Interim Self-Government Arrangements, Sept. 13, 1993, arts. I, VI-VII,
32 I.L.M. 1525, 1527 (1993). Multiple elements of the Palestinian
government will need to review and approve Respondents’ brief in
opposition prior to submission. This inter-agency review process will be
time-consuming, not unlike the U.S. government inter-agency
coordination process for briefs submitted to this Court.

47 Offices in 20 Countries
Squire Patton Boggs (US) LLP is part of the international legal practice Squire Patton Boggs, which operates worldwide through a number of separate
legal entities.
Please visit squirepattonboggs.com for more information.

Scott S. Harris
December 20, 2019
Page 2

Squire Patton Boggs (US) LLP

2.

Respondents also must prepare their brief in opposition to the Petition
for Certiorari in a related case, Mark Sokolow, et al. v. Palestine
Liberation Organization, et al., No. 19-764, for which the current
deadline is January 15, 2020.

3.

Respondents seek this extension, and will be seeking a comparable
extension in the Sokolow case, in light of the workload of responding to
two related Petitions, competing court deadlines in other cases, and the
fact that the current response period occurs during the Winter holidays
when staffing is reduced.

Accordingly, Respondents respectfully request that the Court extend, to and
including March 13, 2020, their deadline to file their brief in opposition to the Petition
for Certiorari in this action.
Respectfully submitted,
Squire Patton Boggs (US) LLP

Gassan A. Baloul
Counsel of Record for Respondents
cc:

All counsel of record (see attached Certificate of Service)

